Report No. DODIG-2013-070                    April 19, 2013




     Defense Agencies Initiative Did Not Contain Some
    Required Data Needed to Produce Reliable Financial
                       Statements
Additional Copies
To obtain additional copies of this report, visit the Department of Defense Inspector
General website at http://www.dodig.mil/pubs/index.cfm, or contact the Secondary
Reports Distribution Unit at auditnet@dodig.mil.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing at auditnet@dodig.mil or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms and Abbreviations
BTA                           Business Transformation Agency
DAI                           Defense Agencies Initiative
DCMO                          Deputy Chief Management Officer
DDRS-B                        Defense Departmental Reporting System - Budgetary
DFAS                          Defense Finance and Accounting Service
DLA                           Defense Logistics Agency
DTIC                          Defense Technical Information Center
FACTS                         Federal Agencies’ Centralized Trial Balance System
FFMIA                         Federal Financial Management Improvement Act
FMR                           Financial Management Regulation
FMS                           Financial Management Service
MDA                           Missile Defense Agency
OMB                           Office of Management and Budget
PMO                           Program Management Office
SBR                           Statement of Budgetary Resources
SCOA                          Standard Chart of Accounts
SFIS                          Standard Financial Information Structure
SNC                           Statement of Net Cost
USD(C)/CFO                    Under Secretary of Defense (Comptroller)/Chief Financial
                                 Officer
USSGL                         United States Standard General Ledger
USUHS                         Uniformed Services University of the Health Services
                                     INSPECTOR GENERAL
                                      DEPARTMENT OF DEFENSE
                                      4800 MARK CENTER DRIVE
                                   ALEXANDRIA, VIRGINIA 22350-1500




                                                                                       Aprill9, 2013

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)/CHIEF
                    FINANCIAL OFFICER
                 DEPUTY CHIEF MANAGEMENT OFFICER
                 DIRECTOR, DEFENSE LOGISTICS AGENCY

SUBJECT: Defense Agencies Initiative Did Not Contain Some Required Data Needed to Produce
          Reliable Financial Statements (Report No. DODIG-2013-070)

We are providing this report for review and comment. The Defense Agencies Initiative Program
Management Office spent $193 million from FY 2007 through FY 2012 to deploy the Defense
Agencies Initiative without ensuring the system fulfilled the functional capabilities needed to
generate reliable financial data. The DAI Program Management Officer did not have procedures and
periodic reviews to ensure proper implementation of: reporting attributes, Standard Financial
Information Stmcture Transaction Library posting logic, and the DoD standard chart of account
codes before deploying DAI. As a result, the Defense Agencies Initiative could not generate all the
fmancial data necessary to prepare fmancial statements. We considered management comments on a
draft of this report when preparing the final report.

DoD Directive 7650.3 requires that recommendations be resolved promptly. The Director,
Business Integration Office, responded for the Under Secretary of Defense (Comptroller)/Chief
Financial Officer. The comments on Recommendation 2.a were not responsive, and comments
on Recommendation 2.b were partially responsive. The Director, Business Integration Office,
did not respond to Recommendations 3.a and 3.b. We request the Director, Business Integration
Office, provide comments to Recommendations 2.a, 2.b, 3.a, and 3.b by May 20,2013. The
Deputy Chief Management Officer comments were partially responsive. We request the Deputy
Chief Management Officer provide additional comments to Recommendations 3.a and 3.b by
May 20, 2013. The Director, Defense Logistics Agency Information Operations, responded for
the Director, Defense Logistics Agency, and the Defense Agencies Initiative Program Manager.
The comments were responsive, and we require no further comments.

If possible, send a Microsoft Word (.doc) file and portable document format (.pdf) file
containing your comments to auddpao@dodig.mil. Copies of your comments must have the
actual signature of the authorizing official for your organization. We are unable to accept the
/Signed/ symbol in place of the actual signature. If you arrange to send classified comments
electronically, you must send them over the SECRET Internet Protocol Router Network
(SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 601-5945 (DSN 329-5945).




                                             LorinT. Venable, CPA
                                             Acting Assistant Inspector General
                                             DoD Payments and Accounting Operations
Report No. DODIG-2013-070 (Project No. D2011-D000DB-0195.000)              April 19, 2013


              Results in Brief: Defense Agencies Initiative
              Did Not Contain Some Required Data Needed
              to Produce Reliable Financial Statements
                                                      The root cause of these problems was that the
What We Did                                           Deputy Chief Management Officer (DCMO)
We determined whether the Defense Agencies            and the Under Secretary of Defense
Initiative (DAI) fulfilled selected functional        (Comptroller)/Chief Financial Officer
capabilities needed to generate accurate and          [USD(C)/CFO] did not ensure DAI officials
reliable financial data and reported data in          properly configured DAI before deploying the
compliance with United States Standard General        system. As a result, financial data were
Ledger (USSGL) requirements. Due to the               unreliable, creating uncertainty on how
disestablishment of the Business Transformation       $402 million out of $9.3 billion was reported on
Agency, Defense Logistics Agency assumed              FY 2011 financial statements for the Defense
responsibility for DAI on August 1, 2011.             Technical Information Center, Missile Defense
                                                      Agency, and the Uniformed Services University
                                                      of the Health Services.
What We Found
DAI did not fulfill functional capabilities           What We Recommend
needed to generate reliable financial data. DAI
officials did not:                                    We recommend that DoD officials configure
                                                      DAI with all USSGL reporting attributes,
                                                      establish controls over manual vouchers,
   .   consistently transmit 9 of 53 attributes
                                                      develop complete system documentation, and
       needed to generate reliable financial
                                                      annually certify that DAI is USSGL and SFIS
       information. This occurred because DAI
                                                      compliant. In addition, DoD officials should
       officials did not follow guidance when
                                                      revise the DoD Financial Management
       configuring DAI reporting attributes and
                                                      Regulation to require core financial systems to
       did not prevent DAI from processing
                                                      include all the accounts in the DoD SCOA, and
       incomplete manual vouchers.
                                                      require DoD to accumulate and report major
   .   demonstrate that DAI could record              program costs by program instead of
       transactions in compliance with the            appropriations. Also, DoD officials should
       Standard Financial Information Structure       improve their oversight of DAI to ensure it
       Transaction Library (SFIS). Of 1,612           complies with USSGL and SFIS guidance.
       account codes, 1,551 were missing. This
       occurred because DAI officials did not         Management Comments and
       have complete system documentation.
                                                      Our Response
   .   include 3 out of 1,064 accounts in the         Management comments were responsive for
        DoD Standard Chart of Accounts                four of eight recommendations. We request that
        (SCOA). This occurred because DAI             USD(C)/CFO and DCMO provide additional
        officials did not believe all accounts        comments. Please see the recommendations
        were necessary because the                    table on the back of this page.
        organizations that used DAI did not use
        these accounts.



                                                  i
Report No. DODIG-2013-070 (Project No. D2011-D000DB-0195.000)       April 19, 2013



Recommendations Table

          Management                        Recommendations         No Additional
                                           Requiring Comment      Comments Required
Under Secretary of Defense           2.a, 2.b, 3.a, 3.b
(Comptroller)/Chief Financial
Officer
Deputy Chief Management Officer      3.a, 3.b
Director, Defense Logistics Agency                              4
Defense Agencies Initiative                                     1.a, 1.b, 1.c
Program Manager

Please provide comments by May 20, 2013.




                                                ii
Table of Contents

Introduction                                                                      1

       Objective                                                                  1
       Background on the Defense Agencies Initiative                              1
       Review of Internal Controls                                                4

Finding. Defense Agencies Initiative Did Not Fulfill Selected Functional
Capabilities Needed to Generate Reliable Financial Statements                     5

       United States Standard General Ledger Reporting Attributes Need
          to be Consistently Transmitted                                          6
       Compliance with Standard Financial Information Structure
          Transaction Library                                                    10
       Defense Agencies Initiative Needs a Complete Chart of Accounts            11
       Deputy Chief Management Officer and Under Secretary of Defense
          (Comptroller)/Chief Financial Officer Oversight Needs Improvement      12
       Increased Risk to Financial Statements                                    13
       Management Actions                                                        13
       Deputy Chief Management Officer Comments on the Finding and
          Our Response                                                           14
       Recommendations, Management Comments, and Our Response                    14

Appendices

       A. Scope and Methodology                                                  20
             Prior Coverage                                                      21
       B. Defense Agencies Initiative Deployment Schedule for Defense Agencies   22
       C. Deputy Chief Management Officer Comments on the Finding                23
Introduction
Objective
Our objective was to determine whether the Defense Agencies Initiative (DAI) fulfilled
selected functional capabilities needed to generate timely, accurate, and reliable financial
statements. Specifically, we determined whether DAI recorded financial data at the
transaction level and reported financial data in compliance with the requirements of the
United States Standard General Ledger (USSGL). See Appendix A for a discussion of
our scope and methodology.

Background on the Defense Agencies Initiative
DoD developed DAI as a single enterprise resource planning system for 28 DoD
agencies. See Appendix B for a list of the DoD agencies. DAI’s primary objective is to
achieve an auditable, Chief Financial Officers Act-compliant system environment that
facilitates accurate and timely financial data. DoD’s goals for deploying DAI are to
replace numerous legacy accounting and other systems, modernize financial management
capabilities, eliminate material weaknesses, and achieve financial statement auditability.
In addition, DoD designed DAI to comply with the Department’s Business Enterprise
Architecture and Office of Federal Financial Management requirements. DoD approved
the initial contract award for DAI in September 2007 and approved the pilot at the
Business Transformation Agency (BTA) in October 2008. The DAI Program
Management Office (PMO) completed the initial deployment of the DAI pilot for the
Procure to Pay process in June 2009.

The DAI PMO spent $193 million on Research, Development, Test and Evaluation,
Procurement, and Operations and Maintenance to develop and deploy DAI from FY 2007
through May 2012. DAI PMO estimated the total cost at completion for DAI to be
$426.8 million through FY 2016.

Governance of Defense Agencies Initiative Implementation
Since January 2007, DAI was a program under BTA’s Defense Business System
Acquisition Executive Directorate. BTA was a defense agency under the authority,
direction, and control of the Deputy Chief Management Officer (DCMO) of the
Department of Defense. BTA managed DoD enterprise-level system acquisitions, and
had authority over budget formulation and execution for all systems under its purview.
The DAI PMO, under BTA, had responsibility to design, develop, implement, and sustain
the DAI solution pursuant to the system functional requirements within cost, schedule,
and performance constraints. The Secretary of Defense directed the disestablishment of
BTA no later than June 30, 2011. Effective August 1, 2011, the Defense Logistics
Agency (DLA) Information Operations, Program Executive Office was responsible for
DAI’s development. The Program Executive Office serves as the single DLA official
providing overall direction and guidance for development, acquisition, testing, system
integration, product improvement, and fielding of DLA information technology
programs, including DAI and its PMO.


                                             1
The Under Secretary of Defense (Comptroller)/Chief Financial Officer [USD(C)/CFO] is
the overall functional sponsor for the DAI program. USD(C)/CFO has primary
responsibility for the functional requirements of the standard DAI solution to ensure
achievement of the program’s functional objectives. In accordance with DoD
Directive 5118.03, April 20, 2012, USD(C)/CFO serves as the principal staff assistant for
the development, integration, implementation, and maintenance of financial strategic
plans, reengineering of financial practices, business information systems architectures
related to financial management, and related strategies. USD(C)/CFO reviews, approves,
and provides oversight of the planning, design, acquisition, deployment, operation,
maintenance, and modernization of financial defense business systems.

The DCMO is the principal staff assistant and advisor to the Secretary of Defense and
Deputy Secretary of Defense for matters relating to the management and improvement of
integrated DoD business operations. DoD formally established the DCMO through DoD
Directive 5105.82, October 17, 2008. As part of this Directive, the Department assigned
to the DCMO the responsibility for recommending methodologies and measurements
criteria for better synchronizing, integrating, and coordinating the business operations of
the DoD to ensure optimal alignment in support of the warfighting mission. The
Directive also gave the DCMO specific duties in the areas of strategic planning,
performance management, process improvement, and defense business systems
oversight. The Office of the DCMO provides oversight to programs through action
officer/analyst oversight, the Defense Business Systems Management Committee, the
Defense Acquisition and Investment Review Boards, and integrated product teams.

Federal Financial Reporting Requirements
Through an October 13, 2011 memorandum, the Secretary of Defense directed the
Department to accelerate key elements of the Financial Improvement and Audit
Readiness Plan and place greater emphasis on the overall effort. Specifically, the
Secretary called for the Department to:

   .   achieve audit readiness of the Statement of Budgetary Resources (SBR) by the
       end of 2014.
   .   provide the necessary resources to meet these goals.
   .   meet the legal requirements to achieve full audit readiness for all DoD financial
       statements by 2017.

In 1996, Congress enacted the Federal Financial Management Improvement Act
(FFMIA), which requires each agency to implement and maintain financial management
systems that comply substantially with Federal financial management systems
requirements, applicable Federal accounting standards, and USSGL at the transaction
level. Office of Management and Budget Circular No. A-127, “Financial Management
Systems,” January 9, 2009, (OMB Circular A-127) implemented the FFMIA.
DoD Regulation 7000.14-R, “DoD Financial Management Regulation” (DoD FMR),
volume 1, chapter 7, requires DoD to implement USSGL in all its accounting systems for
all appropriations and funds in accordance with OMB Circular A-127. To be compliant


                                             2
at the transaction level, systems must provide sufficient traceability from the general
ledger balances to source documentation. Compliance with OMB Circular A-127 and
FFMIA requires:

    . data in financial reports to be consistent with the USSGL,
    . transactions to be recorded consistently with USSGL rules, and
     supporting transaction detail for USSGL accounts to be readily available.

In addition, OMB Circular No. A-136, Financial Reporting Requirements, June 10, 2009,
(OMB Circular A-136) requires that the Statement of Net Cost (SNC) show the net cost
of operations for the reporting entity, as a whole, by major program, which should relate
to the major goal(s) and output(s) described in the entity’s strategic and performance
plans.

Standard Financial Information Structure Requirements
DoD FMR, volume 1, chapter 4, established the Standard Financial Information Structure
(SFIS) to standardize financial reporting across DoD and comply with USSGL at the
transaction level. SFIS is a comprehensive data structure that supports requirements for
budgetary, financial, cost-performance, and external reporting across DoD. SFIS requires
all systems containing financial information to be able to capture and transmit SFIS data
or demonstrate a crosswalking1 to the SFIS format. The USSGL SFIS transaction library
defines DoD transaction codes that delineate the transaction codes in the Treasury
Financial Manual, USSGL Supplement, Section III, “Account Transactions.” The DoD
FMR, volume 1, chapter 7 states that the SFIS USSGL Transaction library establishes the
DoD enterprise-wide requirement for the implementation of the USSGL through detailed
transaction postings for budgetary, proprietary, and memorandum accounts.

In addition, SFIS requires compliance with the DoD Standard Chart of Accounts
(SCOA). The USD(C)/CFO memorandum, “DoD Standard Chart of Accounts in
Standard Financial Information Structure (SFIS),” August 13, 2007, requires the use of
the DoD SCOA in general ledger accounting systems. The DoD SCOA is composed of
USSGL accounts (first four digits) and DoD standard account extensions (last four digits)
to provide the detail required for budgetary, financial, and management reports.

Defense Departmental Reporting System–Budgetary
The Defense Departmental Reporting System–Budgetary (DDRS-B) is designed to
standardize the DoD departmental reporting process and produce the monthly
departmental reports based on the USSGL and standard attributes. The DDRS-B
application is a reporting tool and not an accounting tool. This application is designed to
produce budgetary reports but not determine whether the correct accounting rules and
principles are used when recording transactions and producing reports. DoD components


1
  Crosswalking is a process of mapping elements in one table/location to the equivalent elements in another
table/location.



                                                     3
compile and upload their trial balances into the DDRS-B. The DDRS-B application is
managed by DLA as part of the Business Enterprise Information Services family of
systems. The DDRS PMO is responsible for the development and maintenance of
DDRS-B.

Investment Review Board
Section 901 of the National Defense Authorization Act for Fiscal Year 2012,
December 31 2011, (section 2222, title 10 United States Code [2011]) eliminated the use
of multiple, functionally oriented Investment Review Boards (IRBs) that focused on the
review and certification of Defense business system (DBS) modernizations. Instead,
Section 901 requires the establishment of a single IRB, chaired by the DCMO, having a
cross-functional, enterprise-wide view for evaluating defense business system investments
for certification and periodic review. In addition, Section 901 requires the certification of
any defense business system with a total cost in excess of $1 million over the period of
the future-years defense program, regardless of type of funding or whether any
development or modernization is planned.

On June 29, 2012, the DCMO issued guidance that implemented the revised investment
review process. The DCMO guidance requires that DoD components ensure that defense
business systems are compliant with all applicable DoD Business Enterprise Architecture’s
laws, regulations, and policy; data standards; and business rules.

Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls providing reasonable assurance that programs are operating as intended
and to evaluate the effectiveness of the controls. We identified internal weaknesses in the
program management of DAI. Specifically, the DAI PMO did not have procedures and
periodic reviews to ensure proper implementation of reporting attributes, SFIS
Transaction Library posting logic, and the DoD SCOA before deploying DAI. In
addition, the DAI PMO did not have controls to prevent processing of manual vouchers
without all the required reporting attributes. These controls were missing because the
DAI PMO incorrectly configured reporting attributes, did not establish effective controls
over manual vouchers, did not have complete system documentation containing the
posting logic configured in DAI, and excluded 3 out 1,064 accounts in the DoD SCOA
because agencies did not use these accounts. We will provide a copy of the report to the
senior official responsible for internal controls in DLA.




                                              4
Finding. Defense Agencies Initiative Did Not
Fulfill Selected Functional Capabilities
Needed to Generate Reliable Financial
Statements
DAI did not fulfill functional capabilities needed to generate reliable financial data.
Specifically, DAI PMO officials did not:

   . consistently transmit to DDRS-B 9 of 53 required USSGL reporting attributes
       needed to generate reliable financial statements. This occurred because DAI
       PMO officials did not follow guidance when configuring DAI and did not
       configure DAI to prevent processing manual vouchers without all required
       reporting attributes.

   . demonstrate that DAI could correctly record transactions in compliance with the
       SFIS Transaction Library. Of 1,612 general ledger account codes, 1,551 were
       missing in the posting logic documentation provided by the DAI PMO. This
       occurred because the DAI PMO did not have complete system documentation that
       defined the DAI transaction codes and posting logic used for each financial event
       that would result in an entry to the general ledger.

   . include 3 out of 1,064 accounts contained in the DoD SCOA. This occurred
       because DAI PMO officials believed that not all accounts contained in the DoD
       SCOA were necessary because the organizations that used DAI did not use these
       accounts.

The root cause of these issues was that the DCMO and the USD(C)/CFO did not ensure
that the DAI PMO properly configured the reporting attributes, SFIS Transaction Library,
and DoD SCOA before deploying the system.

As a result, financial data used for the preparation of financial statements were unreliable
and created uncertainty on how $402 million out of $9.3 billion was reported on the
FY 2011 financial statements for the Missile Defense Agency (MDA), the Defense
Technical Information Center (DTIC), and the Uniformed Services University of the
Health Services (USUHS). In addition, without the ability to review the entire DAI
transaction code library and compare it with the SFIS Transaction Library, neither the
DAI PMO nor auditors can validate that the DAI posting logic records business
transactions as required by the SFIS Transaction Library. Furthermore, without a
complete DoD SCOA, Defense organizations do not fully comply with USSGL
requirements, and financial information will be incomplete or misstated. Consequently,
there is an increased risk of DoD not achieving an auditable SBR in FY 2014 and not
having fully auditable financial statements by FY 2017.




                                              5
United States Standard General Ledger Reporting
Attributes Need to be Consistently Transmitted
During FY 2011, the DAI PMO did not consistently transmit to DDRS-B 9 of 53 required
                               USSGL reporting attributes needed to generate
    …the DAI PMO did not       reliable financial statements. This occurred because
    consistently transmit to   DAI PMO officials did not follow Treasury Financial
   DDRS-B 9 of 53 required     Manual, USSGL Supplement, Part 2, Section IV when
       USSGL reporting         configuring DAI and did not configure DAI to prevent
          attributes…          processing manual vouchers without all required
                               reporting attributes.

Reporting Attributes Needed to Prepare Reliable Financial
Statements
DAI did not consistently transmit all the required USSGL reporting attributes for MDA,
DTIC, and USUHS. USSGL attributes are one component of detailed data in agencies’
financial systems related to external reporting of financial statements. Attributes further
describe a USSGL account in order to meet a specific reporting requirement. USSGL
specifies that in order to meet external reporting requirements, agencies need data at a
level below the 4-digit USSGL account. Agencies’ systems must capture this
information at the transaction level by recording transactions using USSGL 4-digit
accounts plus attributes. During FY 2011, the 9 reporting attributes that DAI did not
consistently transmit were:

  .   The Custodial/Non-Custodial Indicator identifies receipts and revenue collected
      on behalf of another agency. Agencies use this attribute to prepare the Statement
      of Custodial Activity, however, DoD does not prepare this statement, custodial
      activity is reported as footnote to the Financial Statements. USSGL required this
      attribute for eight accounts. DAI did not transmit the attribute for account
      6790.900, “Other Expenses Not Requiring Budgetary Resources.” DAI did not
      consistently report this attribute for the months of June 2011 and September 2011.
  .   The Budget Enforcement Act (BEA) Category Indicator classifies funds for
      spending as Mandatory, Discretionary, and Emergency. Agencies use this attribute
      to prepare the “Report on Budget Execution and Budgetary Resources” [Standard
      Form (SF) 133]. USSGL required this attribute for 10 accounts. DAI did not
      transmit the attribute consistently for account 4210.9000, “Anticipated
      Reimbursements and Other Income” for the months of June 2011 and September
      2011.
  .   The Availability Time Indicator indicates whether a specific amount of funding
      is available for execution in the current reporting period, or in a subsequent
      reporting period. Agencies use this attribute to prepare the SF 133. USSGL
      required this attribute for accounts 4610.9000, “Allotments – Realized Resources,”
      4620.9000, “Unobligated Funds Exempt from Apportionment,” and 4700.9000,
      “Commitments – Programs Subject to Apportionment.” DAI did not consistently
      report this attribute for any of the accounts required by USSGL for the months of


                                             6
    June 2011 and September 2011. For FY 2012 and forward, USSGL does not
    require this attribute for the SBR.
.   The Federal/Non-Federal Indicator identifies the type of entity involved in
    transactions with the reporting entity. Agencies use this attribute to prepare the
    Balance Sheet (BS), the Statement of Net Cost (SNC), the SBR, the SF 133, and
    the FMS 2108. USSGL required this attribute for 26 accounts. In June 2011, DAI
    did not transmit this attribute for account 1310.0940, “Accounts Receivable-
    Undistributed Collections-Installation Level.” In September 2011, DAI did not
    consistently transmit this attribute for the following accounts.
    Proprietary accounts:
         o   1310.0940, “Accounts Receivable-Undistributed Collections-Installation
             Level;”
         o 1310.9000, “Accounts Receivable;”
         o 8801.9000, “Offset for Purchases of Assets;”
         o 8802.1720, “Purchases of Property, Plant, and Equipment-Construction-
           in-Progress;” and
         o 5325.9000, “Administrative Fees Revenue.”
     Budgetary accounts:
         o   4221.9000, “Unfilled Customer Orders Without Advance;”
         o 4222.9000, “Unfilled Customer Orders With Advance;”
         o 4251.9000, “Reimbursements and Other Income Earned – Receivable;”
           and
         o 4252.9000, “Reimbursements and Other Income Earned – Collected”
.   The Budget Function/Sub-Function Code classifies financial data according to
    the major purpose served. USSGL required this attribute for 12 accounts. DAI did
    not consistently transmit this attribute for any of the accounts required by USSGL
    for the months of June 2011 and September 2011.
.   The Definite/Indefinite Flag indicates whether the amount of budget authority is
    definite (a specified amount, or a “not to exceed” amount specified) or indefinite
    (determined by other factors). The two acceptable values are either “D” or “I” but
    the DAI’s DDRS-B output file reported the values as either “Y” or “N.” USSGL
    required this attribute for account 4119.9000, “Other Appropriations Realized.”
    DAI did not correctly report this attribute as of June 2011 but the DAI PMO
    corrected it as of September 2011. USSGL requires this attribute to be provided
    by the Federal Agencies’ Centralized Trial Balance System II (FACTSII), and not
    by the agencies. The SFIS Governance Board eliminated this attribute from SFIS
    version 9.0.
.   The Prior Year Adjustment Code identifies changes to obligated or unobligated
    balances that occurred in the previous fiscal year but were not recorded in the
    appropriate Treasury Account Fund Symbol as of October 1 of the current fiscal


                                         7
          year. Agencies use this attribute to prepare the SF 133 and the FMS 2108.
          USSGL required this attribute for 16 accounts. DAI did not report this attribute for
          any of the accounts required by USSGL for the months of June 2011 and
          September 2011.
  .       The Apportionment Category B Code identifies the Category B program used on
          the apportionment. Category B is one of four categories the Office of
          Management and Budget uses to apportion budgetary resources. Category B
          apportions budgetary resources by activities, projects, objects or a combination of
          these categories. Agencies use this attribute to prepare the SF 133. USSGL
          required this attribute for four accounts. DAI did not report this attribute for any
          of the accounts required by USSGL for the months of June 2011 and September
          2011.
  .       The Program Indicator Code identifies the amount of cost or revenue directly or
          indirectly traceable to programs. Agencies use this attribute to prepare the SNC.
          USSGL required this attribute for eight accounts. DAI did not report this attribute
          for the months of June 2011 and September 2011.

Defense Agencies Initiative Configuration Needs to Be Updated
DAI PMO officials did not follow the Treasury Financial Manual, USSGL Supplement,
Part 2, Section IV when configuring DAI.

      .   In 2010, the DDRS PMO updated DDRS-B to comply with changes in the
          USSGL. However, DAI PMO officials did not update DAI to comply with these
          updated requirements. This affected the Custodial/ Non-Custodial Indicator, the
          BEA Category Indicator Code, and the Availability Time Indicator. To ensure
          DAI’s ability to generate reliable financial data, the DAI PMO should maintain
          DAI’s configuration current with changes to USSGL and SFIS requirements.

      .   DAI PMO officials did not follow guidance contained in the Treasury Financial
          Manual, USSGL Supplement, Part 2, Section IV, “Account Attributes for
          proprietary accounts and FACTS II Reporting- August 2010,” which required the
          system to transmit these attributes for financial reporting. This affected the
          Apportionment Category B Code, the Prior Year Adjustment Code, and the
          Program Indicator Code. DAI PMO officials indicated that they did not configure
          these attributes in DAI because SFIS had not defined them. In addition, current
          DoD policy prevents the use of the Program Indicator Code to account for
          program cost, because the policy requires program cost to be reported in the SNC
          by appropriation rather than by program. Without these attributes, DAI could not
          generate complete and reliable financial data. Therefore, the DAI PMO should
          configure DAI to report the Apportionment Category B Code, the Prior Year
          Adjustment Code, and the Program Indicator Code attributes in compliance with
          USSGL requirements. To allow the use of the Program Indicator Code in DAI,
          the USD(C)/CFO should revise the guidance for preparing the SNC contained in
          the DoD FMR, volume 6B, chapter 5, paragraph 050301.B to require the



                                                8
       accumulation and reporting of major program costs by program, as required by
       OMB Circular A-136.

   .   DAI PMO did not configure DAI to populate the Budget Function/Sub-Function
       attribute for all the required funds and accounts, populate the Federal/ Non-
       Federal Indicator attribute for all required budgetary accounts, and populate the
       Definite/ Indefinite Flag attribute with the values prescribed by USSGL. DAI
       PMO officials stated that they had incorrectly configured these attributes for
       funds, treasury symbols, and attribute values. To ensure DAI’s ability to generate
       reliable financial data, the DAI PMO should configure DAI to populate these
       attributes for the funds and accounts required by USSGL, and with the USSGL
       prescribed values.

Manual Vouchers Need Complete Information
DAI PMO officials did not configure DAI to prevent processing manual journal vouchers
without all required reporting attributes. DAI PMO officials stated that if a user created a
manual journal voucher without the Federal/ Non-Federal Indicator, DAI would process
the incomplete manual journal voucher. Consequently, DAI would transmit incomplete
information to DDRS-B. Accordingly, the DAI PMO should modify DAI to prevent
users from creating manual journal vouchers without all the reporting attributes required
by USSGL and SFIS.

Potential Impact on Financial Statements
Because DAI did not transmit 9 of the 53 required reporting attributes, financial data used
for the preparation of financial statements is unreliable. Unreliable amounts reported in
                                           the Federal/Non-Federal Indicator attribute is one
  Because DAI did not transmit 9 of        example shown in the following table. Agencies
        the 53 required reporting          report accounts 4221.9000, “Unfilled Customer
   attributes, financial data used for     Orders Without Advance,” 4251.9000,
      the preparation of financial         “Reimbursements and Other Income Earned-
         statements is unreliable.         Receivable,” and 4252.9000, “Reimbursements
                                           and Other Income Earned- Collected” on various
sections of the Statement on Budgetary Resources, such as “Uncollected Payments from
federal Sources.” When the attribute is not populated, DAI defaults to a Non-Federal
attribute. Therefore if the attribute is not reported consistently, sections in the Statement
of Budgetary Resources, such as “Uncollected Payments from federal Sources” will be
misstated, and the Statement of Budgetary Resources as a whole, could be misstated up to
$1.3 billion. The table shows the amounts of unreliable financial data contained in the
DDRS-B file as of September 30, 2011, for 4 of 9 required attributes that DAI did not
transmit, creating uncertainty on how $402 million out of $9.3 billion was reported on FY
2011 financial statements for the three Defense Agencies using DAI as of September
2011.




                                             9
       Table. Potentially Unreliable Financial Data as of September 30, 2011*
     Attribute            Unreliable            Overall             Financial
                           Amounts              Amount          Statement/Report
Custodial/Non-                                                   SNC, Statement of
Custodial Indicator                                              Custodial Activity
                                                                CA Footnote to the
                           $(536,495.00)    $101,150,774.76             F/S
BEA Category
Indicator Code               495,409.86     1,136,551,844.13           SF133
Availability Time
Indicator               (905,824,695.12)    (905,824,695.12)           SF133
Federal/Non-                                                      SNC, Balance
Federal Indicator                                               Sheet, SF133, FMS
                       1,307,919,199.90     8,973,058,354.70        2108, SBR
  TOTAL                $402,053,419.64     $9,304,936,278.47
*
 The amounts shown represent the combined dollar amounts transmitted to DDRS-B for MDA, USUHS,
and DTIC for Fiscal Year Ended September 30, 2011.

The remaining 5 of the 9 attributes did not have a financial impact for FY 2011 financial
reporting. Specifically:

    .   the Budget Function/Sub-function is a reporting attribute required by USSGL but
         does not affect financial statements or other reports.
    .   the Prior Year Adjustment Code, Apportionment Category B Code, and the
         Program Indicator Code are reporting attributes required by USSGL. However,
         the DAI PMO stated they did not configure these attributes because SFIS had not
         defined them.
    .   the Definite/Indefinite Indicator reported incorrect values to DDRS-B due to an
        incorrect setting that the DAI PMO corrected during audit fieldwork. Also, this
        attribute is supplied by the FACTSII system and not by the agency.

Compliance with Standard Financial Information
Structure Transaction Library
The DAI PMO did not demonstrate that DAI could correctly record transactions in
compliance with the SFIS Transaction Library. This occurred because the DAI PMO did
not have complete system documentation that defined the DAI transaction codes and
posting logic used for each financial event that would result in an entry to the general
ledger. The core financial system requirements state that a core financial system must
have the automated functionality to consistently record like accounting events using
standard transactions and to define the general ledger account postings used by each
standard transaction. The standard transactions should be consistent with USSGL posting
logic and include all appropriate propriety, budgetary, and memorandum accounts.



                                              10
DAI PMO officials used the posting logic embedded in Oracle Federal Financial Suite.
In addition, they developed a posting logic to add budgetary and additional proprietary
                                          transactions to DAI. DAI PMO officials were
   The DAI General Ledger Posting
                                          unable to provide system-generated
      Logic documentation did not
                                          documentation showing the DAI transaction
       contain 1,551 out of 1,612
                                          codes and posting logic used for each financial
     accounts included in the DAI
                                          event that would result in an entry to the general
            chart of accounts.
                                          ledger. Instead, DAI PMO officials developed a
document titled “DAI General Ledger Posting Logic.” On July 29, 2011, DFAS provided
the final version of this document. Although DFAS annotated the document as a draft
version, DAI PMO officials stated it was the final product. The DAI General Ledger
Posting Logic documentation did not contain 1,551 (96 percent) out of 1,612 accounts
included in the DAI chart of accounts. Because DAI PMO officials did not provide a
complete system posting logic, the DAI PMO has limited assurance that it has correctly
implemented the USSGL posting logic for financial transactions. In addition, without the
ability to review the entire DAI transaction code library and compare it with SFIS
Transaction Library, neither the DAI PMO nor auditors can validate that the DAI posting
logic records business transactions as required by the SFIS Transaction Library.

To ensure DAI adequately records business events to the general ledger, the DAI PMO
should develop complete system documentation that crosswalks the DAI transaction
library to the current USSGL SFIS transaction library.

Defense Agencies Initiative Needs a Complete Chart of
Accounts
The DAI PMO did not include within the DAI chart of accounts all accounts contained in
the DoD SCOA. Specifically, DAI did not include 3 of 1,064 accounts contained in the
DoD SCOA. The three DoD accounts missing from DAI’s chart of accounts were:

   .   2141.9000 Accrued Interest Payable–Debt
   .   2191.9000 Employee Health Care Liability Incurred but Not Reported
   .   6610.9000 Cost Capitalization Offset

This occurred because the DAI PMO officials decided not all accounts in the DoD SCOA
were necessary since the three defense organizations that used DAI as of September 2011
did not use these accounts. However, plans for DAI include deployment to
28 organizations, some of which may require posting transactions to the 3 missing
accounts.

In addition, the DoD FMR lacked clarity regarding the inclusion of all USSGL accounts.
In accordance with DoD FMR volume 1, chapter 7, paragraph 070502:

       The USSGL shall be used regardless of the sources of funds. Fund
       identification of financial resources shall be maintained in order to (1)
       disclose compliance with financial authorizations and (2) prepare reports
       on the status of appropriations and funds for Congress, OMB, and


                                            11
       Treasury. The USSGL account structure is intended to be the basic
       structure required for consistent treatment of similar transactions. Not all
       accounts are needed by all accounting entities. [Emphasis added]

The last sentence could lead to misinterpretation and impair DoD’s consistent
implementation of the DoD SCOA in Components’ target general ledger accounting
systems.

On March 24, 2012, a representative from the USD(C)/CFO, Business Integration Office
stated the intended message of the DoD FMR volume 1, chapter 7, paragraph 070502 is
to ensure that entities with general funds include all DoD SCOAs designated as general
funds. Entities using working capital funds should include all DoD SCOAs designated as
working capital funds. In addition, for entities using a combination of general and
working capital funds, they are to include all DoD SCOAs designated as general and
working capital funds.

Therefore, the USD(C)/CFO should revise DoD FMR volume 1, chapter 7, paragraph
070502 to require core financial systems to include all of the accounts in the DoD SCOA
that are required for the type of fund (either general fund, working capital fund, or both)
applicable to the system. If an exemption to this requirement is needed, and can be
justified, then the Defense Business Council should be the sole authority for granting the
exemption.

Deputy Chief Management Officer and Under Secretary
of Defense (Comptroller)/Chief Financial Officer
Oversight Needs Improvement
DCMO and USD(C)/CFO did not ensure that the DAI PMO properly implemented the
reporting attributes, the SFIS Transaction Library, and the DoD SCOA before deploying
the system. Although DCMO and USD(C)/CFO officials provided guidance and met
regularly with DAI PMO officials, they did not provide sufficient oversight to ensure
DAI complied with USSGL and SFIS requirements.

DoD Directive 5105.82 mandates that DCMO ensure that business transformation
policies and programs are designed and managed to improve performance standards,
economy, and efficiency. DoD Directive 5118.03 mandates that, in coordination with
DCMO, USD(C)/CFO provide for the design, development, and installation of financial
systems and for management improvement programs throughout the DoD, especially
those related to financial management. Also, DoD Directive 5118.03 states that
USD(C)/CFO is to oversee development and maintenance of integrated DoD accounting
and financial management systems, including financial reporting and management
controls.

Without adequate oversight from DCMO and USD(C)/CFO, there is no assurance that
the DAI PMO will maintain the DAI configuration in compliance with the USSGL, the
SFIS Transaction Library, and the DoD SCOA. DCMO, in coordination with



                                            12
USD(C)/CFO, should provide adequate oversight to ensure that DAI complies with the
current USSGL, SFIS Transaction Library, and SFIS requirements. DCMO, in
coordination with USD(C)/CFO, should conduct a one-time validation that the DAI has
implemented the reporting attributes, posting logic, and FY 2013 DoD SCOA needed to
support financial reporting of general and working capital funds. In addition, DCMO
should develop a procedure to validate that the Pre-Certification Authority certified
accurately that the DAI Initiative PM implemented all subsequent updates to the
reporting attributes, SFIS Transaction Library or DoD SCOA.

Until August 1, 2011, BTA oversaw the activities of the DAI PMO. BTA was
responsible for ensuring the DAI PMO implemented DAI in accordance with the DoD
Business Enterprise Architecture and SFIS. Due to the disestablishment of BTA, the
DLA Information Operations, Program Executive Office assumed responsibility for the
DAI PMO. The Program Executive Office is responsible for ensuring the DAI PMO
develops and sustains DAI in compliance with the DoD Business Enterprise Architecture
and SFIS. Therefore, to enhance oversight of DAI, the Director, DLA should annually
review the DAI configuration to ensure the DAI complies with the DoD Business
Enterprise Architecture and SFIS pursuant to Section 901 of the National Defense
Authorization Act for Fiscal Year 2012 (section 2222, title 10 United States Code
[2011]), and DoD FMR volume 1, chapter 4.

Increased Risk to Financial Statements
Because the DAI PMO did not transmit to DDRS-B all the required USSGL reporting
attributes and did not demonstrate that DAI could record transactions in compliance with
                                       the SFIS Transaction Library, there is an increased
     There is an increased risk of     risk of DoD not achieving an auditable SBR in FY
         DoD not achieving an          2014 and not having auditable financial statements
    auditable SBR in FY 2014 and       by FY 2017. The DoD Financial Improvement and
    not having auditable financial     Audit Readiness Plan states that the primary
        statements by FY 2017.         objective of DAI is to achieve a system
                                       environment that is auditable and compliant with
the Chief Financial Officer Act. It further states that DAI will improve the other defense
organizations’ ability to achieve and sustain auditable SBR balances. Therefore, the DAI
PMO needs to evaluate the DAI system implementation for compliance with the DoD
Financial Improvement and Audit Readiness Plan and ability to support the Department’s
financial statements.

Management Actions
During the audit, the DAI PMO added the following three missing accounts to the DAI
chart of accounts. Therefore, as of September 2011, DAI fully complied with the DoD
SCOA.
   . 2141.9000 Accrued Interest Payable–Debt
   . 2191.9000 Employee Health Care Liability Incurred but Not Reported
   . 6610.9000 Cost Capitalization Offset




                                           13
In addition, the DAI PMO corrected 2 of the 9 USSGL required reporting attributes:
    . Definite Indefinite Indicator (corrected as of September 30, 2011)
    . Budget Function/Sub-function (corrected as of January 31, 2012)

Deputy Chief Management Officer Comments on the
Finding and Our Response
Summaries of DCMO comments on the finding and our response are in Appendix C.

Revised Recommendations
On the basis of comments from the Director, Business Integration Office, who responded
for the Under Secretary of Defense (Comptroller)/Chief Financial Officer and the Deputy
Chief Management Officer (DCMO), we revised Recommendations 2.b and 3.b.


Recommendations, Management Comments, and Our
Response
1. We recommend that the Project Manager of the Defense Agencies Initiative:

       a. Modify the system to consistently report the following six attributes in
accordance with current United States Standard General Ledger and Standard
Financial Information Structure requirements: Custodial/Non-Custodial Indicator,
the Budget Enforcement Act Category Indicator, the Availability Time Indicator,
the Federal/Non-Federal Indicator, the Prior Year Adjustment Code, and the
Apportionment Category B Code.

Defense Agencies Initiative Program Manager Comments
The Director, Defense Logistics Agency Information Operations, responded for the
Defense Agencies Initiative Program Manager. She agreed and stated that Defense
Logistics Agency Information Operations management corrected the six attributes listed
in our recommendation. She also stated that Defense Logistics Agency Information
Operations management observed that DAI financial reports included the correct
attributes.




                                          14
Our Response
The Director, Defense Logistics Agency Information Operations, comments were
responsive. We require no additional comments.

      b. Implement controls to prevent users from creating manual journal
vouchers without all the reporting attributes required by the United States
Standard General Ledger and the Standard Financial Information Structure.

Defense Agencies Initiative Program Manager Comments
The Director, Defense Logistics Agency Information Operations, responded for the
Defense Agencies Initiative Program Manager. She agreed and stated that Defense
Logistics Agency Information Operations management has developed a process to review
the controls for manual journal voucher entries and to ensure users are aware of the
required attributes. She also stated that the current review and approval workflow
provides quality checks to ensure each voucher contains the applicable attributes.

Our Response
The Director, Defense Logistics Agency Information Operations, comments were
responsive. We require no additional comments.

      c. Develop complete system documentation that includes a crosswalk of the
Defense Agencies Initiative transaction library to the United States Standard
General Ledger transactions library.

Defense Agencies Initiative Program Manager Comments
The Director, Defense Logistics Agency Information Operations, responded for the
Defense Agencies Initiative Program Manager. She agreed and stated that Defense
Logistics Agency Information Operations management will develop the crosswalk by the
end of FY 2013. She also stated that DAI is conducting a Federal Financial Management
Improvement Act review, and the results are due by May 2013.

Our Response
The Director, Defense Logistics Agency Information Operations, comments were
responsive. We require no additional comments.

2. We recommend that the Under Secretary of Defense (Comptroller)/Chief
Financial Officer:

       a. Revise the guidance contained in the DoD Financial Management
Regulation, volume 6B, chapter 5, paragraph 050301.B. to require costs of program
reported in the Statement of Net Cost to be accounted for by program costs and not
by appropriation, enabling the use of the Program Indicator Code attribute.




                                         15
Under Secretary of Defense (Comptroller)/Chief Financial Officer
Comments
The Director, Business Integration Office, responded for the Under Secretary of Defense
(Comptroller)/Chief Financial Officer. He did not agree and stated that the guidance in
the DoD Financial Management Regulation (FMR), Volume 6B, Chapter 5, paragraph
050301.B, is consistent with the Office of Management and Budget Circular No. A-136,
Financial Reporting (Circular No. A-136). He stated that presenting the Statement of Net
Cost by appropriation fulfills the Office of Management and Budget requirements
because it is a meaningful grouping as defined by Section II.4.4.1. of Circular No. A-136.
The Director, Business Integration Office, also stated that until the majority of DoD
systems are upgraded to collect costs based on missions and outputs performance
measures, revision of the DoD Financial Management Regulation to report the Statement
of Net Cost in any other manner would be misleading or confusing.

Our Response
The Director, Business Integration Office, comments were not responsive. The
Statement of Net Cost represents the net cost of programs and organizations of the
Department that are supported by appropriations or other means. The intent of the
Statement of Net Cost is to provide gross and net cost information related to the amount
of output or outcome for a given program or organization administered by a responsible
reporting entity. The Department’s current processes and systems do not capture and
report the lower level costs for major programs. We request that the Director, Business
Integration Office, reconsider his position on our recommendation and provide comments
on the final report.

        b. Clarify the guidance regarding the implementation of the DoD Standard
Chart of Accounts contained in the DoD Financial Management Regulation, Volume
1, Chapter 7, paragraph 070502 to state that all core financial systems must include
all the accounts in the DoD Standard Chart of Accounts that are required for the
type of fund (either general fund, working capital fund, or both). DoD senior
management should conduct sufficient business process reengineering to clearly
define which DoD Standard Chart of Accounts each fund type is required to
populate in order to support financial reporting. ERP systems supporting the fund
type should contain the identified accounts. If the need for an exemption can be
justified, then the Defense Business Council should be the sole authority for
granting the exemption and only after excessive scrutiny by personnel for the
Offices of the Deputy Chief Financial Officer and Deputy Chief Management
Officer as to why the system is unable to comply.

Under Secretary of Defense (Comptroller)/Chief Financial Officer
Comments
The Director, Business Integration Office, responded for the Under Secretary of Defense
(Comptroller)/Chief Financial Officer. He partially agreed and stated that DoD Financial
Management Regulation will be updated to clarify the guidance regarding the
implementation of the DoD Standard Chart of Accounts as recommended. However, the


                                           16
Director, Business Integration Office stated that the Office of the Deputy Chief Financial
Officer drafted a policy memorandum that provides guidance requesting system-level
exemption of certain accounts based on non-applicability to the supported organization.
He stated that this memorandum is currently in formal coordination and once finalized
will be incorporated into the DoD Financial Management Regulation.

Our Response
The Director, Business Integration Office, comments were partially responsive. We
agree that there can be exemptions to the DoD Standard Chart of Accounts at the
component level. Accordingly, we revised Recommendation 2.b, to state that DoD senior
management should clearly define which DoD Standard Chart of Accounts each fund
type is required to populate in order to support financial reporting. If the need for an
exemption can be justified, then the Defense Business Council should be the sole
authority for granting the exemption. We request that the Director, Business Integration
Office, provide comments on the revised recommendation in the final report.

3. We recommend that the Deputy Chief Management Officer, in coordination with
Under Secretary of Defense (Comptroller)/Chief Financial Officer:

      a. Conduct a one-time validation that the Defense Agencies Initiative has
implemented the reporting attributes, posting logic, and FY 2013 DoD Standard
Chart of Accounts for the business events needed to support financial reporting of
general and working capital transactional data as directed by DoD Policy.

Deputy Chief Management Officer Comments
The Deputy Chief Management Officer partially agreed. She stated that Defense
Agencies Initiative was 99.72 percent compliant with the DoD Standard Chart of
Accounts. The Deputy Chief Management Officer also stated that using DoD funds to
perform a one-time validation on Defense Agencies Initiative would not be the most
advantageous use of taxpayer dollars as there are other systems with far greater need of
implementation assistance. However, she stated that the Offices of the Deputy Chief
Financial Officer and Deputy Chief Management Officer will schedule a full Standard
Financial Information Structure validation as schedule and dollars permit.

Our Response
The Deputy Chief Management Officer comments were partially responsive. We
acknowledge that the Defense Agencies Initiative was 99.72 percent compliant with the
DoD Standard Chart of Accounts. However, the DoD Standard Chart of Accounts is only
one aspect of our finding and recommendation. Our intent is that the Deputy Chief
Management Officer, in coordination with Under Secretary of Defense
(Comptroller)/Chief Financial Officer, conduct a one-time validation of the Defense
Agencies Initiative to ensure the system complies, not only with the DoD Standard Chart
of Accounts, but the required posting logic and reporting attributes. To ensure the
Defense Agencies Initiative can generate reliable financial data, the Deputy Chief
Management Officer should make it a priority to perform this one-time validation of the
Defense Agencies Initiative. We request that the Deputy Chief Management Officer


                                            17
reconsider her position on our recommendation and provide comments on the final report
on a plan of action to perform the one-time validation of the Defense Agencies Initiative.

        b. Establish procedures to validate that the Pre-Certification Authority
certified accurately that the Defense Agencies Initiative Program Manager
implemented all subsequent updates to reporting attributes, Standard Financial
Information Structure Transaction Library, and DoD Standard Chart of Accounts.

Deputy Chief Management Officer Comments
The Deputy Chief Management Officer partially agreed and stated that all system owners
must certify to the Defense Business Council that their systems comply with the Business
Enterprise Architecture, including the Standard Financial Information Structure and the
latest DoD Standard Chart of Accounts. Therefore, the Deputy Chief Management
Officer recommended directing the recommendation to the Director, Defense Logistics
Agency.

Our Response
The Deputy Chief Management Officer comments were partially responsive. Our intent
is that the Deputy Chief Management Officer improve oversight of the implementation of
Enterprise Resource Planning systems. In addition, the Defense Logistics Agency
Information Operations, agreed with our recommendation to perform annual reviews of
the Defense Agencies Initiative to ensure that the Defense Agencies Initiative Program
Management Office has correctly implemented the reporting attributes, Standard
Financial Information Structure Transaction Library posting logic, and DoD Standard
Chart of Accounts. Accordingly, we do not agree with her recommendation to direct
Recommendation 3.b to the Director, Defense Logistics Agency. Therefore, we revised
Recommendation 3.b. to state the Deputy Chief Management Officer should establish
procedures to validate that the Pre-Certification Authority certified accurately that the
Defense Agencies Initiative Program Manager implemented all subsequent updates to
reporting attributes, Standard Financial Information Structure Transaction Library, and
DoD Standard Chart of Accounts. We request that the Deputy Chief Management
Officer provide comments on the revised recommendation in the final report.

4. We recommend that the Director, Defense Logistics Agency, annually review the
Defense Agencies Initiative to ensure that the Defense Agencies Initiative Program
Management Office has correctly implemented the reporting attributes, Standard
Financial Information Structure Transaction Library posting logic, and DoD
Standard Chart of Accounts to support financial reporting.

Director, Defense Logistics Agency Comments
The Director, Defense Logistics Agency Information Operations, responded for the
Director, Defense Logistics Agency. She agreed and stated that Defense Logistics
Agency Information Operations management is performing a Federal Financial
Management Improvement Act review, which includes extensive testing of Standard
Financial Information Structure requirements. She stated that the review is scheduled to
be completed by July 2013. The Director, Defense Logistics Agency Information


                                            18
Operations, also stated that based on the results of the Federal Financial Management
Improvement Act review management will implement an appropriate review schedule.

Our Response
The Director, Defense Logistics Agency Information Operations, comments were
responsive. We require no additional comments.




                                          19
Appendix A. Scope and Methodology
We conducted this performance audit from April 2011 through February 2013 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We reviewed DAI’s chart of accounts, for the months of June 2011, September 2011 and
January 2012, to determine whether it complied with USSGL. Specifically, we
determined whether DAI’s chart of accounts contained the general ledger account codes
required for financial reporting. We also compared DAI’s chart of accounts to the DoD
SCOA to determine whether it included all the applicable DoD general ledger account
codes.

We reviewed the DAI transaction library and posting logic to determine whether it
complied with the requirements of USSGL at the transaction level. To test DAI’s
customized transaction library and posting logic for compliance with USSGL, we
requested the PMO to provide a crosswalk of the DAI transaction library to the USSGL
Transaction library. We compared the partial crosswalks provided by the PMO to the
USSGL transaction library. We reviewed the results of reconciliations performed by the
Defense Finance and Accounting Service (DFAS) on quarterly trial balances for MDA,
DTIC, and USUHS. We also reviewed adjusting journal entries performed by DFAS for
MDA, DTIC, and USUHS.

We compared the DAI output files to DDRS-B for MDA, DTIC and USUHS, for the
months of June 2011, September 2011 and January 2012, to determine whether DAI was
reporting to DDRS-B the reporting attributes required by USSGL and SFIS.

We interviewed key personnel from PMO, DFAS, DTIC, MDA, and USUHS to discuss
their roles in ensuring DAI operates properly. We also reviewed policies and procedures
to determine whether the PMO, the DCMO, and the USD(C)/CFO provided adequate
oversight on the implementation of DAI at MDA, USUHS, and DTIC.

We observed personnel at DTIC, MDA, and USUHS who input data into DAI to create
Military Interdepartmental Purchase Requests. Additionally, we observed the PMO
progress through various DAI screens during a “walk-through” to show how the system
records purchase requests and the account codes posted.

We reviewed MDA trial balances and adjusting journal entries prepared under DAI and
the legacy system to determine whether DAI has improved the accuracy of MDA
financial data. We analyzed quarterly trial balances received from DFAS accountants to
determine whether DAI has reduced the number of adjusting entries needed to balance
the agency’s ledgers. We reviewed the journal entries logs to determine the types of
adjusting entries done under the legacy system versus DAI.


                                           20
Use of Computer-Processed Data
To perform this audit, we used FY 2011 transaction code mappings and DDRS-B data
feed files compiled by DAI PMO and DFAS. We discussed data integrity with financial
management and system design experts, agency officials and officials at organizations
involved with the development of DAI. We used the SFIS transaction library obtained
from the PMO website, in combination with the DFAS computer generated posting logic
document. We used the transaction code listing from the PMO’s website to validate
DAI’s posting logic. We validated the accuracy of the computer generated DoD Standard
Chart of Accounts and SFIS requirements obtained from the Business Transformations
Agency’s website. We also reviewed computer generated transactional data files for
anomalies, such as missing or incorrect USSGL attribute values. We obtained a list of
the USSGL chart of accounts, account transaction codes, posting logic, and attributes
from the U.S. Treasury FMS website. We discussed the data reliability issues in our
finding. We believe the computer-processed data we used was adequate to support the
findings and conclusions in this report.

Prior Coverage
During the last five years, the Government Accountability Office (GAO) and the DoD
Inspector General have issued two reports discussing Defense Agencies Initiative (DAI),
among other enterprise resource planning systems. Unrestricted GAO reports can be
accessed over the Internet at http://www.gao.gov. Unrestricted DoD IG reports can be
accessed over the Internet at http://www.dodig.mil.

GAO
GAO Report No. 11-53, “DoD Business Transformation: Improved Management
Oversight of Business System Modernization Efforts Needed,” October 7, 2010

DoD IG
DoD IG Report No. DODIG-2012-111, “Enterprise Resource Planning Systems Schedule
Delays and Reengineering Weaknesses Increase Risks to DoD’s Auditability Goals,”
July 13, 2012




                                          21
Appendix B. Defense Agencies Initiative
Deployment Schedule for DoD Agencies

                        Defense Agency                                Scheduled Deployment
                                                                              (FY)
Defense Technical Information Center**                                        2010
Missile Defense Agency**                                                      2011
Uniformed Services University of the Health Services**                        2011
Defense Threat Reduction Agency                                               2012
Defense Technology Security Administration                                    2012
Defense Prisoner of War/Missing Personnel Office                              2012
TRICARE Management Activity-Headquarters                                      2012
Defense Advanced Research Projects Agency                                     2013
Defense Acquisition University                                                2013
Defense Security Service                                                      2013
National Defense University                                                   2013
Office of Economic Adjustment                                                 2013
Defense Media Activity                                                        2013
Defense Finance and Accounting Service                                        2014
Defense Human Resource Activity                                               2014
DoD Office of Inspector General                                               2014
DoD Education Agency                                                          2014
Defense Information Systems Agency                                            2014
Defense Contract Audit Agency                                                 2015
Defense Contract Management Agency                                            2015
Defense Commissary Agency                                                     2015
Defense Security Corporation Agency                                           2016
Washington Headquarters Services                                              2016
Pentagon Federal Protection Agency                                            2016
Defense Legal Services Agency                                                 2016
Defense Test Resource Management Center                                       2016
Office of the Director, Operational Test and Evaluation                       2016
Center for Countermeasures                                                    2016
**
     These DoD agencies were included in our testing for compliance with SFIS and USSGL requirements.




                                                   22
Appendix C. Deputy Chief Management
Officer Technical Comments on the Finding
Deputy Chief Management Officer and Under Secretary
of Defense (Comptroller)/Chief Financial Officer
Oversight Needs Improvement
Deputy Chief Management Officer Comments
DCMO stated that DAI was not designated a Pre-Major Automated Information System
(MAIS) until February 2011. She also stated that as of March 7, 2013, the majority of
deployments occurred while DAI was under the acquisition oversight of BTA. DCMO
indicated that stating the failure to ensure proper implementation of DAI prior to
deployment by the DCMO was an underlying cause of issues is inaccurate, as the DCMO
had no oversight role until February 2011. In addition, DCMO stated that since the Pre-
MAIS designation in February 2011, DCMO has been actively engaged with the DAI
PMO in a variety of ways to include convening a DAI Principal's Group on a regular
basis throughout 2012 to review program execution and status. This group consisted of
Principals from the DCMO, Under Secretary of Defense (Comptroller)/Chief Financial
Officer, Defense Information Systems Agency, and Defense Logistics Agency.

Our Response
We acknowledge that DAI was not designated as a Pre-MAIS until February 2011.
However, DoD Directive 5105.82, October 17, 2008, paragraph 4.g, states that the
DCMO is responsible for ensuring “that business transformation policies and programs
are designed and managed to improve performance standards, economy, and efficiency
and that the Defense Business Transformation Agency (BTA) is attentive and responsive
to the requirements of its organizational customers, both internal and external to the
Department of Defense”. The Office of the DCMO provides oversight to programs
through action officer/analyst oversight, the Defense Business Systems Management
Committee, the Defense Acquisition and Investment Review Boards, and integrated
product teams. Therefore, DCMO, in coordination with USD(C)/CFO, should provide
adequate oversight to ensure that DAI complies with the current USSGL, SFIS
requirements, and the USSGL SFIS Transaction Library.

Compliance with Standard Financial Information
Structure Transaction Library
Deputy Chief Management Officer Comments
DCMO stated that the statement "DAI PMO officials did not demonstrate the DAI could
correctly record transactions in compliance with the SFIS Transaction Library" is
incorrect and misleading. She stated that the evidence supporting this statement within
the context of this report is solely related to DAI lacking DAI posting accounts within the
DAI documentation. DCMO also stated that there is no connection between DAI posting


                                            23
accounts within the DAI system documentation that relates to the DoD USSGL
Transaction Library. She stated that the report states that DoD IG did not compare DAI
transactions with the DoD USSGL Transaction Library. DCMO stated that it is unclear
how transaction compliance can be assessed without testing. Furthermore, she stated that
DAI's documentation listing the posting accounts within the system has no relationship to
a demonstration of whether or not DAI could correctly record transactions in compliance
with the DoD USSGL Transaction Library. In addition, DCMO stated that there is no
federal financial management guidance that requires system owners to take on the costly
process of compiling and producing an entire DAI transaction code library and
transaction level crosswalk.

Our Response
We acknowledge the DCMO concern that the lack of posting account documentation
does not necessarily indicate a non-compliance with the DoD USSGL Transaction
Library. However, DAI utilizes a customized transaction library that does not match the
transaction codes and descriptions in the DoD USSGL Transaction Library. In addition,
DAI contained transaction codes that often combined multiple DoD USSGL Transaction
Library codes into a single transaction code. To adequately test DAI transactions for
compliance with the posting logic contained in the DoD USSGL Transaction Library, we
need a complete DAI transaction code library with a crosswalk to the DoD USSGL
Transaction Library. Moreover, we need a complete DAI transaction library to
adequately obtain a statistical sample of transactions representative of all business events
handle by the system. We requested to the DAI PMO complete documentation with the
system’s posting logic during the audit, which they were not able to provide; therefore we
could not test DAI’s posting logic.

We also acknowledge that there is no federal financial management guidance that
requires system owners to produce an entire transaction code library and transaction level
crosswalk. However, a best practice promulgated by the U.S. Government
Accountability Office’s Federal Information System Controls Audit Manual, February
2009, states that “design documentation supporting the processing design exists for
validation and change control purposes.” The customized DAI transaction library is part
of the system design for processing business events. Therefore, complete DAI
transaction library documentation needs to exist to validate DAI transaction processing
design and for adequately controlling the changes in the design.




                                            24
Office of the Under Secretary of Defense Comptroller/Chief
Financial Officer Comments




                  Click to add JPEG file




                                   25
Office of the Under Secretary of Defense Comptroller/Chief
Financial Officer Comments




                  Click to add JPEG file




                                   26
Office of the Under Secretary of Defense Comptroller/Chief
Financial Officer Comments




                  Click to add JPEG file




                                   27
Deputy Chief Management Officer Comments




                Click to add JPEG file




                                28
Deputy Chief Management Officer Comments     Final Report
                                              Reference




                Click to add JPEG file




                                           Appendix C, Page 23




                                29
Deputy Chief Management Officer Comments      Final Report
                                               Reference




                                           Appendix C, Page 23




                                           Appendix C, Page
                                           23-24




                                           Appendix C, Page
                                           23-24


                Click to add JPEG file     Page 11




                                           Revised, Page 13




                                           Appendix. C, Page
                                           23-24




                                           Appendix. C, Page 24




                                30
Deputy Chief Management Officer Comments      Final Report
                                               Reference




                                           Appendix. C, Page 24




                                           Appendix. C, Page 24




                                           Revised, Page 10


                                           Page 17




                Click to add JPEG file




                                31
Deputy Chief Management Officer Technical Comments     Final Report
                                                        Reference




                                                     Appendix C, Page 23




                                                     Revised Page 1




                Click to add JPEG file




                                32
Deputy Chief Management Officer Technical Comments      Final Report
                                                         Reference




                                                     Revised Page 3



                                                     Appendix C, Page 24




                                                     Revised, Page 13


                Click to add JPEG file




                                33
Deputy Chief Management Officer Technical Comments      Final Report
                                                         Reference




                                                     Appendix C, Page 23




                                                     Appendix C, Page 24




                                                     Revised, Page 13
                Click to add JPEG file




                                34
Deputy Chief Management Officer Technical Comments      Final Report
                                                         Reference




                                                     Revised, Page 13




                                                     Revised Page 6




                                                     Recommendation 2a,
                                                     Page 16




                                                     Revised Page 9
                Click to add JPEG file




                                35
Deputy Chief Management Officer Technical Comments      Final Report
                                                         Reference




                                                     Revised, Page 10



                                                     Appendix C, Page 24




                                                     Appendix C, Page 24


                Click to add JPEG file




                                36
Deputy Chief Management Officer Technical Comments     Final Report
                                                        Reference




                                                     Recommendation 1c,
                                                     Page 15
                                                     Appendix C, Page 24



                                                     Recommendation 2b,
                                                     Page 17




                Click to add JPEG file               Appendix C, Page 23




                                37
Deputy Chief Management Officer Technical Comments     Final Report
                                                        Reference




                                                     Appendix C, Page 23




                                                     Recommendation 3a,
                                                     Page 17




                Click to add JPEG file




                                38
Deputy Chief Management Officer Technical Comments     Final Report
                                                        Reference




                                                     Recommendation 3b,
                                                     Page 18




                                                     Appendix C, Page 24




                                                     Recommendation 3a,
                Click to add JPEG file               Page 17




                                39
Deputy Chief Management Officer Technical Comments     Final Report
                                                        Reference




                                                     Recommendation 3a,
                                                     Page 17




                                                     Recommendation 3b,
                                                     Page 18




                Click to add JPEG file




                                40
Defense Logistics Agency Comments




                 Click to add JPEG file




                                 41
Defense Logistics Agency Comments




                 Click to add JPEG file




                                 42
Defense Logistics Agency Comments




                 Click to add JPEG file




                                 43
